No.
IN Tun

suryeme q,ourt of tbe Mntte[ btuteg
Cenlos Lounnrnt, EsqutRn,
Petitioner,

v

UNrrnn Srarps or AupntcA, MlcHanl RanoIN, Lee
StnAus, Gnnano SoxroN, eNo RoNalo ScSNECK,
Respondents.

WORD COUNT CERTIFICATION
As required by Supreme Court Rule 33.L(h), I certify that the Petition for A Writ
of Certiorari contains 7,977 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under the penalty of perjury that the foregoing is true and correct.
Executed on April 27, 2020.

Andres Rivero
RIVERO MESTRE LLP
2525Ponce de Leon Blvd., Suite 1000
Miami, Florida 33134
(305) 445-2500

Counsel of Record for Petitioner

